No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

LUKE EDWARD FLEMING,
Petitioner,
v.
STATE OF FLORIDA
Respondent.

On Petition for Writ of Certiorari
to the Florida Second District Court of Appeal

MOTION TO PROCEED IN FORMA PAUPERIS

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 1 of 3

The Petitioner, LUKE EDWARD FLEMING, prays the Court for leave to file
the petition for a writ of certiorari without prepayment of costs and to proceed in
forma pauperis. The Petitioner’s indigency affidavit is not included with this motion
because undersigned counsel was recently retained to represent the Petitioner in the
instant proceeding and undersigned counsel was unable to obtain the Petitioner’s
completed indigency affidavit prior to the due date of the petition for a writ of
certiorari. Undersigned counsel will submit an amended motion to proceed in forma
pauperis with the completed indigency affidavit as soon as undersigned counsel
receives the affidavit from the Petitioner (through the prison mail system).
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 3

CERTIFICATE OF SERVICE
I HEREBY CERTIFY a true and correct copy of the foregoing instrument was
furnished to:
Office of the Attorney General
Concourse Center 4
3507 East Frontage Road, Suite 200
Tampa, Florida 33607-7013
by U.S. mail delivery on August 9, 2021.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 3 of 3

